                                                                                         MEMORANDUM



G- ~BB U.S.OFFICE
    .'f:lB  GOVERNMENT PRINTINGGENERAL
                  OF INSPECTOR  OFFICE




            Date
            January 8, 2010
            To
            Public Printer

            From
            Inspector General
            Subject
            Report on the Consolidated Financial Statement Audit of the
            Government Printing Office for Fiscal Years Ended
            September 30, 2009 and 2008
            Report Number 10-02


            This report contains the audit of the annual consolidated financial
            statements of the Government Printing Office (GPO) as of  the fiscal years
            (FY) ended September 30, 2009 and 2008. We contracted with the
            independent public accounting firm of KPMG LLP (KPMG) to audit the
            consolidated balance sheet; statement of revenue and expenses; and
            statement of cash flows for the years then ended. The audits were
            conducted in accordance with auditing standards generally accepted in the
            United States; and the standards applicable to financial audits contained in
            Government Auditing Standards (GAS), issued by the Comptroller General of
            the United States.

            Results of Independent Audit

            KPMG expressed an unqualified opinion on the GPO consolidated financial
            statements as ofthe FYs ended September 30, 2009, and 2008, by
            concluding that the GPO financial statements were fairly presented, in all
            material respects, in conformity with generally accepted accounting
            principles (GAAP). KPMG's consideration of              internal control over financial
            reporting resulted in two significant deficiencies!, which KPMG did not


            1 A significant deficiency is a deficiency, or combination of deficiencies, in internal control
            that is less severe than a material weakness, yet importnt enough to merit attention by
            those charged with governance. A material weakness is a deficiency, or combination of
            deficiencies, in internal control, such that there is a reasonable possibilty that a material
            misstatement of the entity's financial statements will not be prevented, or detected and
            corrected on a timely basis.
                                                                                                    GPO Form 731A
            Keeping America Informed I www.gpo.gov/olg                                                    (R9.07)
Public Printer
Report 10-02
January 8,2010
Page 2 of     5



consider to be material weaknesses. Details on these two deficiencies,
which were in the areas of financial reporting, and information technology
are as follows:


1. Financial Reporting Controls

KPMG identified the following significant deficiencies related to financial
reporting controls.

       · Review and Reporting of General Propert, Plant and
            Equipment. GPO recorded additions to General Property, Plant and
                                                               ledger based
            Equipment (PP&E) in its subsidiary ledger and general

            on when cash disbursements were made for the assets instead of
            recording the PP&E when it was received and accepted by GPO. In
            addition, GPO recorded two advance payments totaling
            approximately $4.6 milion as PP&E instead of as an advance.

       · Certain Reconcilation Controls. Certain key reconcilations in the
            areas of expenses, unbiled accounts receivable, accounts payable
            and deposit accounts were not always performed timely and when
            performed, differences noted were not consistently investigated and
            resolved in a timely manner.

       · Controls over Compilation of Statement of Cash Flows. Cash
            flows from operating activities and investing activities in the draft
            statement of cash flows were each initially misstated by
            approximately $3.7 milion as a result of GPO misclassifyng certain
            investing cash flows as operating activities. This mi~classification
            was corrected in the final statement of cash flows.

2. Information Technology (IT) General and Application Controls

During. FY 2009, deficiencies in the design and/or operations of GPO's IT .
general and application controls were noted in security management, access
controls, configuration management, and contingency planning. The details
of these conditions, several of which have been reported to management in
prior years' audit reports, are as follows:


      · Security Management. GPO made progress in FY 2009 to formalize
            GPO's established information security objectives and high level
            policy. However, KPMG noted the following conditions:

                  o GPO's Business Information System (GBIS) and General
                      Support System (GSS) have not received full authority to
Public Printer
Report 10-02
January 8, 2010
Page 3 of   5



                     operate in GPO's production environment. During the
                     certification and accreditation process, conditions were
                     identified that resulted in the issuance of an Interim Authority
                     to Operate (IATO). Those conditions were not remediated as
                     of September 30, 2009. KPMG also observed that: (i) the
                     security plan for GBIS contained information that did not
                     adequately reflect current processes in the GBIS environment,
                     (ii) a section of the security plans for both GBIS and the GSS
                     was incomplete, and (ii) elements of the risk assessment for
                     the GSS were incomplete.

             o Security awareness policies and procedures were not
                     consistently enforced.


                o The Memorandum of    Understanding (MOU) that governs the
                     development, management, operation, and security of the
                     connection between the National Finance Center (NFC), GPO's
                     payroll processor, and GPO's hosted system at Oracle's data
                     center expired in March 2009 and has not been extended or
                     reaffirmed.

                o GPO did not implement procedures to review and update its
                   Plans of Action and Milestones (POA&M) for IT security
                     weaknesses on a quarterly basis.

                o GPO's process for identifyng, recording, and maintaining its
                     system inventory has not produced a comprehensive, current
                     inventory of both minor and major systems as well as related
                     hardware and peripherals.

      · Access Controls. KPMG noted the following access controls
          deficiencies:

                o GPO management was not consistently following documented
                     policies and procedures for granting and reviewing access to
                     the data center.


                o Access to GBIS was not appropriately restricted and
                     monitored.

                o GPO did not have adequate user identification controls to
                   verify the identity of users during phone calls requesting
                   password resets from the Information Technology and
                     Support (IT&S) Help Desk.
Public Printer
Report 10-02
January 8, 2010
Page 4 of       5



                  o Comprehensive policies and procedures for granting access to
                        the Local Area Network (LAN) had not been developed and
                        formally documented.

                  o The GPO Computer Security Incident Response Team (CSIRT)
                     Framework and Procedures did not fully address the elements
                        outlined in National Institute of Standards and Technology
                        (NIST) Special Publication (SP) 800-61, Computer Security
                        Incident Handling Guide.

      · Configuration Management. KPMG noted that the development
            and implementation of configuration changes for GBIS did not adhere
            to strict project management and configuration management
            practices. In addition, during FY 2009, GPO management continued
            the development of a desktop patch management plan which started
            in FY 2008. However, GPO has not been able to complete the
            implementation of the patch management plan and process.

      · Contingency Planning.                        GPO did not have a completed contingency
            plan for its GSS that would allow the complete recovery of operations
            in the event of a major disaster or outage. The IT&S contingency plan
            and strategy for the GSS was in the process of development.
            Additionally, GPO IT&S lacked standard operating procedures for
            several of its routine and critical processes including media backup
            and off-site storage, and LAN configuration management.

KPMG disclosed no instances of noncompliance with certain provisions of
laws, regulations and contracts or other matters that are required to be
reported under GAS.


Evaluation and Monitoring of Audit Performance

We reviewed the KPMG audit of                         the GPO consolidated financial statements
by:

       · Evaluating the independence, objectivity, and qualiications of                    the
           auditors and specialists;
       · Reviewing the approach of and planning for the audit;
       · Attending key meetings with auditors and GPO officials;
       · Monitoring the audit progress;
       · Examining audit documentation;
       · Reviewing the auditors' reports; and
       · Reviewing the financial statements and associated footnotes.
Public Printer
Report 10-02
January 8, 2010
Page 5 of     5



KPMG is responsible for the attached reports dated January 8,2010, and the
conclusions expressed in the reports. Our review, as differentiated from an
audit in accordance with GAS, was not intended to enable us to express, and
accordingly we do not express, an opinion on GPO's financial statements, the
effectiveness of internal controls, or compliance with laws and regulations.
However, our monitoring review, as limited to the procedures listed above,
disclosed no instances in which KPMG did not comply, in all material
respects, with GAS.

If you have any questions or comments about this report, please do not
hesitate to       contact me, or Mr. Kevin Carson, Assistant Inspector General for
Audits and Inspections, at (202) 512-2009 or through email at
kcarson(ágpo.gov.




çA4~
J. Anthony Ogden
Inspector General

Attachment

cc:
Deputy Public Printer
Chief Management Officer
Acting Chief of Staff
Acting General Counsel
